BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that the original
and 3 copies of the foregoing Combined Motion for
Leave to File Brief as Amici Curiae and Brief of
Kentucky, Alabama, Arizona, Arkansas, Georgia,
Idaho, Indiana, Kansas, Louisiana, Mississippi,
Missouri, Montana, Nebraska, North Dakota, Ohio,
Oklahoma, South Carolina, South Dakota, Texas,
Utah, and West Virginia as Amici Curiae Supporting
the Applicants in No. 20A155, Herbert H. Slatery, III.
Attorney General and Reporter of the State of
Tennessee, et al. v. Bristol Regional Women's Center,
P.C., et al., was hand delivered and sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 15th day of April, 2021:
Sarah Keeton Campbell
Office of the Tennessee Attorney General
John Sevier Building
500 Dr. Martin L. King, Jr., Blvd.
Nashville, TN 37243
(615) 532-6026
Sarah.Campbell@ag.tn.gov
Counsel for Applicants
Autumn Katz
Center for Reproductive Rights
199 Water Street, 22nd Floor
New York, NY 10038
akatz@reprorights.org
Counsel for Bristol Regional Women's Center, PC. and
Memphis Center for Reproductive Health

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Scott Tift
Barrett Johnston Martin & Garrison, LLC
Bank of America Plaza
414 Union Street, Suite 900
Nashville, TN 37219
stift@barrettjohnston.com
Counsel for Respondents
Maithreyi Ratakonda
Planned Parenthood Federation of America
123 William Street, 9th Floor
New York, NY 10038
mai.ratakonda@ppfa.org
Counsel for Planned Parenthood of Tennessee and
North Mississippi
Michael J. Dell
Kramer Levin N aftalis & Frankel LLP
1177 Avenue of the Americas
New York, NY 10036
mdell@kramerlevin.com
Counsel for Respondents

Daniel Cameron
Attorney General of Kentucky
S. Chad Meredith
Solicitor General
Counsel of Record
Barry L. Dunn
Deputy Attorney General
Matthew F. Kuhn
Principal Deputy Solicitor General
Brett R. Nolan
Deputy Solicitor General, Civil Appeals
Office of the Kentucky Attorney General
700 Capitol Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 15, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ ,~~
(ftlh, IJ. ~

Notary Public
[seal]

J

60cYI

